HHS/OIG, Audit -"Audit of Costs and Reporting of Funds Under the Public Health Preparedness and
Response for Bioterrorism Program District of Columbia,"(A-03-04-00353)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Costs and Reporting of Funds Under
the Public Health Preparedness and Response for Bioterrorism Program District of Columbia," (A-03-04-00353)
June 21, 2005
Complete
Text of Report is available in PDF format (921 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Centers for Disease Control and Prevention (CDC) awarded the District of Columbia
Department of Health (District) $24.5 million between September 1999 and August 2004 to improve their
bioterrorism preparedness and response capabilities under the Public Health Preparedness and Response
for Bioterrorism Program (Program).  Our objectives were to determine whether the District accounted
for and used Program funds in accordance with the cooperative agreement with CDC, and did not supplant
current State or local funding with Program funds.
The District did not track Program funds by focus area, and did not provide an accurate
financial status report (FSR) for the period October 2001 to September 2003.  The District did
not use or did not obligate $11.8 million or 48 percent of the $24.5 million awarded.  The District
improperly charged or did not adequately document $76,432 in Program funds, and erroneously charged
$162,105 in employee overtime pay to Program funds.  The District did not use Program funds to
supplant other State or local expenditures.
We recommended that the District:  (1) record, summarize, and report
CDC Program funds awarded, expended, obligated, and unobligated by focus area in accordance with the
cooperative agreement; (2) revise and resubmit the October 1, 2001, to September 30, 2003 FSR to CDC;
(3) ensure Program activities are funded in a manner to minimize unobligated fund balances and to achieve
Program goals; and (4) refund to CDC $238,537 representing $76,432 in improperly charged or inadequately
documented costs, and $162,105 in erroneously charged overtime pay.  The District concurred with
our first three recommendations.  We adjusted our fourth recommendation after the District provided
documentation to support $66,301 in expenditures in response to our draft report.  The District
essentially met the intent of our fourth recommendation by agreeing to adjust its FSRs to account for
the remaining $238,537 in improperly charged and inadequately documented expenditures.  We are
pleased that the District recognizes that $238,537 should not have been charged to Program funds.  We
are concerned that the revision of the FSRs only increases the significant unobligated funds already
reported.